<html>
<title> - H.R. 960, AND H.R. 1045, GREATER AUTONOMY FOR THE NATION'S CAPITOL</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]




 
   H.R. 960, AND H.R. 1045, GREATER AUTONOMY FOR THE NATION'S CAPITOL

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                                H.R. 960

     TO AMEND THE DISTRICT OF COLUMBIA HOME RULE ACT TO ELIMINATE 
           CONGRESSIONAL REVIEW OF NEWLY-PASSED DISTRICT LAWS

                                 AND ON

                               H.R. 1045

   TO AMEND THE DISTRICT OF COLUMBIA HOME RULE ACT TO ELIMINATE ALL 
FEDERALLY-IMPOSED MANDATES OVER THE LOCAL BUDGET PROCESS AND FINANCIAL 
 MANAGEMENT OF THE DISTRICT OF COLUMBIA AND THE BORROWING OF MONEY BY 
                        THE DISTRICT OF COLUMBIA
                               __________

                           NOVEMBER 18, 2009

                               __________

                           Serial No. 111-66

                               __________

Printed for the use of the Committee on Oversight and Government Reform

  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform



                  U.S. GOVERNMENT PRINTING OFFICE
57-789                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                   EDOLPHUS TOWNS, New York, Chairman
PAUL E. KANJORSKI, Pennsylvania      DARRELL E. ISSA, California
CAROLYN B. MALONEY, New York         DAN BURTON, Indiana
ELIJAH E. CUMMINGS, Maryland         JOHN L. MICA, Florida
DENNIS J. KUCINICH, Ohio             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       JOHN J. DUNCAN, Jr., Tennessee
WM. LACY CLAY, Missouri              MICHAEL R. TURNER, Ohio
DIANE E. WATSON, California          LYNN A. WESTMORELAND, Georgia
STEPHEN F. LYNCH, Massachusetts      PATRICK T. McHENRY, North Carolina
JIM COOPER, Tennessee                BRIAN P. BILBRAY, California
GERALD E. CONNOLLY, Virginia         JIM JORDAN, Ohio
MIKE QUIGLEY, Illinois               JEFF FLAKE, Arizona
MARCY KAPTUR, Ohio                   JEFF FORTENBERRY, Nebraska
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         AARON SCHOCK, Illinois
PATRICK J. KENNEDY, Rhode Island     BLAINE LUETKEMEYER, Missouri
DANNY K. DAVIS, Illinois             ANH ``JOSEPH'' CAO, Louisiana
CHRIS VAN HOLLEN, Maryland
HENRY CUELLAR, Texas
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
PETER WELCH, Vermont
BILL FOSTER, Illinois
JACKIE SPEIER, California
STEVE DRIEHAUS, Ohio
JUDY CHU, California

                      Ron Stroman, Staff Director
                Michael McCarthy, Deputy Staff Director
                      Carla Hultberg, Chief Clerk
                  Larry Brady, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

               STEPHEN F. LYNCH, Massachusetts, Chairman
ELEANOR HOLMES NORTON, District of   JASON CHAFFETZ, Utah
    Columbia                         MARK E. SOUDER, Indiana
DANNY K. DAVIS, Illinois             BRIAN P. BILBRAY, California
ELIJAH E. CUMMINGS, Maryland         ANH ``JOSEPH'' CAO, Louisiana
DENNIS J. KUCINICH, Ohio
WM. LACY CLAY, Missouri
GERALD E. CONNOLLY, Virginia
                     William Miles, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 18, 2009................................     1
Text of H.R. 960.................................................     8
Text of H.R. 1045................................................    14
Statement of:
    Fenty, Adrian M., Mayor, District of Columbia; Vincent Gray, 
      chairman, District of Columbia City Council; Natwar Gandhi, 
      chief financial officer, District of Columbia; Alice M. 
      Rivlin, senior fellow of economic studies, Brookings 
      Institution and director, Greater Washington Research; and 
      Walter Smith, executive director, District of Columbia 
      Appleseed Center for Law and Justice.......................    33
        Fenty, Adrian M..........................................    33
        Gandhi, Natwar...........................................    52
        Gray, Vincent............................................    38
        Rivlin, Alice M..........................................    67
        Smith, Walter............................................    73
Letters, statements, etc., submitted for the record by:
    Connolly, Hon. Gerald E., a Representative in Congress from 
      the State of Virginia, prepared statement of...............    31
    Fenty, Adrian M., Mayor, District of Columbia, prepared 
      statement of...............................................    35
    Gandhi, Natwar, chief financial officer, District of 
      Columbia, prepared statement of............................    54
    Gray, Vincent, chairman, District of Columbia City Council, 
      prepared statement of......................................    40
    Lynch, Hon. Stephen F., a Representative in Congress from the 
      State of Massachusetts:
        Prepared statement of....................................     6
        Prepared statement of Robert Brannum.....................     2
    Norton, Hon. Eleanor Holmes, a Delgate in Congress from the 
      District of Columbia, prepared statement of................    23
    Rivlin, Alice M., senior fellow of economic studies, 
      Brookings Institution and director, Greater Washington 
      Research, prepared statement of............................    69
    Smith, Walter, executive director, District of Columbia 
      Appleseed Center for Law and Justice, prepared statement of    75


   H.R. 960, AND H.R. 1045, GREATER AUTONOMY FOR THE NATION'S CAPITOL

                              ----------                              


                      WEDNESDAY, NOVEMBER 18, 2009

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10 a.m., in 
room 2154, Rayburn House Office Building, Hon. Stephen F. Lynch 
(chairman of the subcommittee) presiding.
    Present: Representatives Lynch, Norton, Kucinich, Clay, 
Connolly, Chaffetz, Bilbray, and Towns (ex-officio).
    Staff present: William Miles, staff director; Aisha 
Elkheshin, clerk/legislative assistant; Dan Zeidman, deputy 
clerk/legislative assistant; Adam Fromm, minority chief clerk 
and Member liaison; Howard Denis, minority senior counsel; 
Mitchell Kominsky, minority counsel; and Alex Cooper, minority 
professional staff member.
    Mr. Lynch. Good morning. The Subcommittee on Federal 
Workforce, Postal Service, and the District of Columbia hearing 
will now come to order. I want to welcome Ranking Member 
Chaffetz; members of the subcommittee; our chairman, Ed Towns, 
the gentleman from New York; all the witnesses; and also those 
in attendance at today's hearing.
    The purpose of today's hearing is to examine the merits and 
potential impact of H.R. 960, the District of Columbia 
Legislative Autonomy Act of 2009, and H.R. 1045, the District 
of Columbia Budget Autonomy Act of 2009, collectively. These 
measures introduced by Representative Eleanor Holmes Norton are 
intended to advance the concept of self governance in the 
District of Columbia.
    The chairman, ranking member, and subcommittee members will 
each have 5 minutes to make opening statements and all Members 
will have 3 days to submit statements for the record.
    Before I get started with my statement today, I would like 
to ask unanimous consent that the statement of Robert Brannum, 
chairman of the Fifth District Citizens' Advisory Council, be 
entered into the record. Hearing no objections, that is so 
ordered.
    [The prepared statement of Mr. Brannum follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.001
    
    [GRAPHIC] [TIFF OMITTED] T7789.002
    
    Mr. Lynch. As mentioned earlier, the subcommittee convenes 
today's legislative hearing to examine H.R. 960, the District 
of Columbia Legislative Autonomy Act of 2009, and H.R. 1045, 
the District of Columbia Budget Autonomy Act of 2009. These are 
two bills in a series of legislative proposals introduced by 
Congresswoman Eleanor Holmes Norton to promote greater autonomy 
and self governance for the residents and elected officials of 
the District of Columbia.
    Established by Article 1, Section 8, Clause 17 of the U.S. 
Constitution, the District of Columbia came to be our Nation's 
Capital in order to protect the institutions of national 
Government and to prevent the disproportionate influence of any 
particular State. In establishing the seat of the Federal 
Government, the Constitution granted Congress exclusive 
legislative control over the District of Columbia. However, 
since ratification of the ``District Clause,'' Congress has 
employed various approaches to municipal governance in the 
Nation's Capital. Most notably, in 1973 Congress enacted the 
District of Columbia Self Government and Governmental 
Reorganization Act, also known as the Home Rule Act.
    The Home Rule Act created the District's current governing 
structure, complete with a duly elected Mayor and City Council, 
thereby setting the Nation's Capital on the road toward self 
governance. While the Home Rule Act of 1973 represented a 
significant step forward for the city's municipality, the act 
also came with an array of checks and balances such as the 
requirement that Congress review all locally passed legislation 
as well as the District's annual budget before final enactment 
can occur.
    Although the Home Rule Act attempted to strike a balance 
between Congress's constitutionally derived authority and the 
need to delegate aspects of this power to a local government, 
the fact of the matter is that certain provisions of the act 
have created a costly and sometimes unpredictable public 
policymaking process and an unaccommodating fiscal budget cycle 
for the city. It is for these reasons that my colleague Ms. 
Norton has introduced H.R. 960 and H.R. 1045 to do away with 
certain aspects of Congress's review authority as outlined in 
the provisions of the Home Rule Act.
    Specifically, H.R. 960, the District of Columbia 
Legislative Autonomy Act of 2009, would eliminate the 30 and 60 
day congressional review periods for criminal and civil laws 
passed by the District government. Along the same lines, H.R. 
1045, the District of Columbia Budget Autonomy Act of 2009, 
would remove the statutory requirement that Congress annually 
approve the District's fiscal year budget, which is principally 
raised from local revenue sources.
    While collectively H.R. 960 and H.R. 1045 will 
fundamentally reshape the way Congress is involved in the local 
legislative and budgetary matters of the Nation's Capital, 
nothing in either of the measures being discussed today can or 
will eliminate Congress's exclusive constitutional authority 
over the District of Columbia. In other words, Congress will 
retain the power to repeal or amend local laws through the 
routine passage of legislation and its right to annually review 
the myriad of Federal payments to the District of Columbia.
    That said, the subcommittee is interested in exploring the 
pros and cons of these two proposals and pro-home rule 
measures, which is the main purpose of today's hearing.
    The District is home to nearly 575,000 tax-paying American 
citizens, many of whom have served in our Nation's armed forces 
and have gone to the polls to elect their own city officials to 
carry out the business of local governance. Even in light of 
some of the city's ongoing policy challenges and its 
longstanding structural budget imbalance, the District of 
Columbia has made great strides over the past decade in its 
capacity to govern. That is why I believe today's discussion on 
revisiting Congress's approach to overseeing the legislative 
and budgetary matters of the Nation's Capital is certainly 
warranted.
    Again, I would like to thank my colleagues, especially 
Eleanor Holmes Norton for her tireless work in this policy 
matter and for bringing the concerns of her district to the 
forefront of this committee's and this Congress's business. I 
welcome all those in attendance this afternoon. I look forward 
to hearing your testimony on these important legislative 
matters.
    I welcome my colleague, Ranking Member Chaffetz, the 
gentleman from Utah, to offer 5 minutes for an opening 
statement.
    [The prepared statement of Hon. Stephen F. Lynch and the 
texts of H.R. 960 and H.R. 1045 follow:]

[GRAPHIC] [TIFF OMITTED] T7789.003

[GRAPHIC] [TIFF OMITTED] T7789.004

[GRAPHIC] [TIFF OMITTED] T7789.055

[GRAPHIC] [TIFF OMITTED] T7789.056

[GRAPHIC] [TIFF OMITTED] T7789.057

[GRAPHIC] [TIFF OMITTED] T7789.058

[GRAPHIC] [TIFF OMITTED] T7789.059

[GRAPHIC] [TIFF OMITTED] T7789.060

[GRAPHIC] [TIFF OMITTED] T7789.061

[GRAPHIC] [TIFF OMITTED] T7789.062

[GRAPHIC] [TIFF OMITTED] T7789.063

[GRAPHIC] [TIFF OMITTED] T7789.064

[GRAPHIC] [TIFF OMITTED] T7789.065

[GRAPHIC] [TIFF OMITTED] T7789.066

[GRAPHIC] [TIFF OMITTED] T7789.067

    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you all for 
being here.
    Our U.S. Constitution says Congress is ``to exercise 
exclusive legislation in all cases whatsoever over such 
District.''
    I yield back the balance of my time.
    Mr. Lynch. The chairman now recognizes the gentle lady from 
the District of Columbia, Eleanor Holmes Norton, for 5 minutes 
for an opening statement.
    Ms. Norton. I thank you, Mr. Chairman. I want to welcome my 
good friends from the District--Mayor Fenty, Council Chair 
Gray, and the other witnesses at the table who are most expert 
in the affairs of the District of Columbia, more so than I or 
any of us in Congress could possibly be. But particularly, Mr. 
Chairman, I want to thank you for affording us this hearing 
which helps us to reach the goal I have set out here in the 
Congress to have a hearing this year and for the second half of 
the 111th Congress to see the Congress take the historic step 
of bringing the District from its paternalistic oversight. That 
is a very kind way, Mr. Chairman, to put it, if I may say so.
    This is an anachronism. I don't think any American would be 
proud of the fact that a jurisdiction that raises $6 billion on 
its own can't spend a dime until the Congress says it may or 
would be proud of what we put our Council through in order for 
laws to become final in the District of Columbia.
    If you live in the Virgin Islands or Puerto Rico or Guam--I 
have good friends who are Delegates from those territories--you 
never hear the Congress of the United States attaching anything 
to your budget because they never see your budget. By the way, 
they don't pay Federal income taxes the way our residents do at 
a rate of second per capita in the United States.
    Mr. Chairman, so that you will understand that this is not 
so radical a proposal, in the original Home Rule Act the Senate 
would indeed have given the District budget autonomy. In the 
compromises that always go on in this place, that was removed.
    It has created huge operational problems and delays for the 
District of Columbia.
    We, the Congress of the United States, have the power to 
wipe out every law that the District passes because we retain 
authority. The Home Rule Act is a delegated authority so we 
retain the authority to do whatever we want to the District. 
That really emphasizes why it is time for the Congress to help 
the District come into the 21st century.
    Mr. Chairman, I do want to give recognition to my friends 
in the minority. During the 12 years when I was in the 
minority, I was able to negotiate two steps that make this a 
logical step.
    One was the midyear budget autonomy bill. It will seem 
astonishing to most Americans that in the middle of the year 
the District had to come here to ask the Congress essentially 
if it could spend the money it collected the first half of the 
year. So the District had to be on the first supplemental, 
creating another delay for the District. When I was in the 
minority, that was given up and that bill was passed.
    And when I was in the minority--and this is why I believe 
this is and will be a bipartisan bill--and pointed out the 
hardships on the District of having our budget go 3 or 4 months 
past even our September 30th deadline, they agreed and have for 
at least half a dozen or perhaps 10 years. So the District 
budget has gotten out on the first continuing resolution.
    But look at that. What is a continuing resolution? 
Continuing resolutions are for Government agencies. Therefore 
we continue to be treated as a Government agency.
    It is huge problem for the District that our budget year is 
attuned to the Federal budget year whereas in your district and 
in Mr. Chaffetz's district the budget year is over by the 
summer. You can prepare for school. Our folks have to prepare 
for school, which is one of the great if not the overriding 
goal or issue in the District of Columbia, without its budget 
in hand. It has created terrible problems in the past when the 
budget was delayed.
    The legislative autonomy is even more laughable. The budget 
autonomy it seems to me speaks for itself. Most people don't 
know what Chairman Gray and the Council go through in order to 
get a bill to be final.
    I am going to let him describe a process that is not even 
used in the Congress anymore. That is to say, we do not indeed 
use resolutions of disapproval. You have never had one brought 
from my colleagues on the other side and certainly not from us. 
We don't issue a resolution of disapproval, vote on it here, 
and then go vote on it in the Senate. But we require the 
District to act as if we do. The District has to come here and 
wait for 30 legislative days or 60 legislative days if it is 
criminal matter. Well, we are not in for 5 legislative days 
many days, so the District's laws can go many months without 
being final. Yet we say to Mayor Fenty and Chairman Gray, you 
run that city and you make sure you run it efficiently because 
if you don't, you will hear from people up here saying you are 
not a very efficient city.
    No jurisdiction in the United States is faced with such 
handicaps, particularly handicaps for which there is no reason 
today. If the reason is control, you retain the control.
    You will hear finally the CFO, the chief financial officer, 
talk about the cost the real cost to the city--which is not a 
State, of having redundant oversight from the Congress of the 
United States.
    Mr. Chairman, Chairman Towns, and my good friend Mr. 
Chaffetz have an opportunity, it seems to me, to do for the 
District what was done for the District in 1973--take the 
historic step of giving the District the last two important 
elements of home rule for the District of Columbia. I couldn't 
thank you enough for what you have done for us today.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T7789.005

[GRAPHIC] [TIFF OMITTED] T7789.006

[GRAPHIC] [TIFF OMITTED] T7789.007

[GRAPHIC] [TIFF OMITTED] T7789.008

[GRAPHIC] [TIFF OMITTED] T7789.009

    Mr. Lynch. I thank the gentle lady. I would like to go out 
of order just to allow the full chairman of the committee, the 
gentleman from Brooklyn, NY, Mr. Towns, 5 minutes for an 
opening statement. We thank him for his attendance here today.
    Mr. Towns. Thank you very much, Congressman Lynch. I would 
like to thank Congressman Lynch and Congressman Chaffetz for 
holding this hearing on autonomy for the District of Columbia. 
I thank my good friend, Congresswoman Eleanor Holmes Norton, 
for her hard work on behalf of the District.
    Let me again thank the witnesses for their attendance here 
today. I want to let you know that we really appreciate your 
being here. Welcome, Mayor Fenty. On behalf of the Committee on 
Oversight and Government Reform, I thank the Mayor for his 
attendance this morning. I want to thank Councilman Brown. I 
want to thank Councilman Gray and the other elected and 
appointed officials for coming.
    I support home rule and self governance in the District. 
Over the years the District has achieved great independence. Of 
course, this has been done through the District's own advocacy. 
By the adoption of the Home Rule Act and the end of involvement 
by the Control Board in the District's finances among other 
measures, the District has steadily proved its ability to 
manage its own affairs. They even passed a balanced budget 
during an economic crisis that has greatly affected many State 
and local governments. I applaud the progress that has been 
made in the District and your efforts to implement the 
principle of home rule.
    I look forward to working very closely with Congresswoman 
Norton; Chairman Lynch; the ranking member, Congressman 
Chaffetz; and of course you, too, Mayor Fenty to make certain 
that home rule is a reality. Now I know that it has been a long 
battle and a long struggle. But I think that we have to 
continue the fight and continue to push on.
    My son, who serves in the State Assembly in New York, says 
to me that sometimes people just catch on faster than others. 
There is a thing called individual differences. He says 
sometimes it takes people 2\1/2\ hours to watch 60 Minutes. It 
doesn't mean they can't watch it, it just takes them a lot 
longer. So we hope, as we continue to talk about the importance 
of home rule, that eventually the other Members of Congress 
will get it and understand how important it is to move this 
forward. Congresswoman Norton, keep pushing.
    I yield back.
    Mr. Lynch. I thank the gentleman. The Chair now recognizes 
the gentleman from Maryland, Mr. Cummings, for 5 minutes.
    Mr. Cummings. Thank you very much, Mr. Chairman. I want to 
thank you and Mr. Chaffetz for holding this vitally important 
hearing to examine two pieces of legislation that would 
increase autonomy for the Federal tax-paying residents of the 
District of Columbia--H.R. 960, the District of Columbia 
Legislative Autonomy Act of 2009, and H.R. 1045, the District 
of Columbia Budget Autonomy Act of 2009.
    I appreciate the opportunity to move forward on these 
pieces of legislation as part of Congresswoman Eleanor Holmes 
Norton's Free and Equal D.C. Legislative Initiative. I must say 
to Ms. Norton, I thank you for all that you do. You have 
constantly been on the battlefield on this issue and so many 
others. You had to convince some of us and then to bring others 
of us along to do the right thing. But you know that there are 
many who are on your side. We have just got to get a few more.
    In the Constitution, the ``District Clause'' was crafted to 
help protect Federal interests without State cooperation and to 
prevent particular State influences on the Legislature where 
the Federal capital was located. Mr. Chairman, the time has 
changed. The residents of the District of Columbia deserve a 
government that operates for them as effectively and 
efficiently as possible. These two pieces of legislation would 
help achieve this goal.
    H.R. 960, the District of Columbia Legislative Autonomy Act 
of 2009, would eliminate congressional review of newly passed 
District laws. Since the Home Rule Act established the local 
District government in 1973 by allowing constituents to elect a 
Mayor and City Council, Congress has rarely taken advantage of 
the review process to overturn passed legislation. In fact, 
only once has a resolution of disapproval been signed by the 
President. That was President Bush in 1991 when he signed the 
resolution related to restricting the height of buildings in 
the District. This process imposes an unnecessary burden on the 
U.S. Congress. I believe it is time we trusted the District of 
Columbia government to pass laws for its own citizens.
    H.R. 1045 would allow the District to forego congressional 
review and approval of its operating capital budgets financed 
from local revenues. The District budget moves through the 
routine Federal appropriations process, which Congress 
regularly falls short of passing before the beginning of the 
fiscal year. In fact, only once since 1996 has Congress enacted 
the District's budget before the start of the District's fiscal 
year. Allowing the District to implement its local budget 
without mandatory congressional review will prevent delay in 
service funding and, more importantly, service delivery. 
Citizens of the District of Columbia pay taxes and the way 
those tax dollars are spent should be determined by their 
elected officials.
    The people of the District of Columbia deserve and demand 
the full rights that they are due. I appreciate again 
Congresswoman Norton's tireless efforts to achieve this for 
them.
    With that, Mr. Chairman, I look forward to hearing the 
testimony of the witnesses. I yield back.
    Mr. Lynch. I thank the gentleman. The Chair now recognizes 
the gentleman from Virginia, Mr. Connolly, for 5 minutes for an 
opening statement.
    Mr. Connolly. Thank you, Chairman Lynch. Thank you for 
holding this hearing. I want to thank Congresswoman Norton for 
her leadership on the District of Columbia. It is a pleasure to 
welcome this panel, especially my old friends Mayor Fenty and 
Chairman Gray with whom I worked for many years on the local 
regional issues here in the National Capital Region.
    For the life of our Republic we have relied on the 
Federalist system to deliver services in a cost effective 
manner that protects individual civil rights and general 
welfare, except in Washington, DC. Our founders established a 
system of government that constrained the power of the Federal 
Government and protected local and State prerogatives, except 
in Washington, DC. For the last two centuries, we have 
witnessed the creative evolution of the roles of local, State, 
and Federal Governments except in Washington, DC, where the 
City Council's attempts to govern in accordance with its 
residents' needs and desires has been constrained and thwarted 
all too frequently by political gamesmanship and obstruction by 
this Congress.
    The District of Columbia faces many challenges. 
Unfortunately, the District's residents' capacity to hold local 
officials accountable in addressing these challenges is 
compromised because those local officials are constrained by 
congressional attempts either to manipulate laws in the 
District and/or congressional failure to approve District 
budgets in a timely manner. If the residents of the District 
are going to hold their elected officials accountable, Congress 
needs to get out of the way.
    Congresswoman Norton has presented us with two bills that 
would restore a Federalist balance of power to local government 
in the District of Columbia. The District Legislative Autonomy 
Act and the District of Columbia Budget Autonomy Act are two 
notable and worthy pieces of legislation.
    Some may be concerned these bills would result in things 
like tighter gun controls or protection for certain people with 
certain lifestyles. Whether they do or not I don't think is the 
business of this Congress. I believe that Congress needs to 
defend the underlying principle of local autonomy even if the 
District contemplates actions with which we individually or 
even collectively may disagree. It is not our business. It 
simply should not be the role of Congress to meddle with local 
decisionmaking. That is a principle I have always held. It is a 
principle that will guide me in my future policy and votes with 
respect to this local government.
    I thank the Chair and yield back.
    [The prepared statement of Hon. Gerald E. Connolly 
follows:]

[GRAPHIC] [TIFF OMITTED] T7789.010

    Mr. Lynch. I thank the gentleman. Before we turn to the 
testimony of our witnesses, I would like to offer some brief 
introductions of our first panel.
    The Honorable Adrian M. Fenty was elected to serve as the 
fifth Mayor of the District of Columbia in November 2006. As 
Mayor, Mr. Fenty has made high quality public education for all 
and efficient and accountable government his administration's 
policy priorities. A native Washingtonian, Mayor Fenty attended 
Oberlin College before earning a juris doctorate degree from 
Howard University Law School. After graduating from law school, 
Mayor Fenty went on to serve as a local ANC commissioner and 
later as the ward 4 council member from 2001 to 2007.
    The Honorable Vincent C. Gray is the current chairman of 
the District of Columbia City Council. Also a native 
Washingtonian and a proud graduate of the District of Columbia 
public school system, Chairman Gray has developed a reputation 
as a champion of young people by helping them and their 
families gain access to critical social services. Prior to 
being elected to chair the city's legislative body, Chairman 
Gray represented the city's residents of ward 7 on the City 
Council. Chairman Gray is also well known for his service as 
the first executive director of the Covenant House in 
Washington, an organization dedicated to serving homeless and 
at risk youth.
    Dr. Natwar Gandhi serves as the chief financial officer for 
the government of the District of Columbia. In his position, 
Dr. Gandhi is responsible for the city's finances, including 
its approximately $7 billion in annual operating and capital 
funds. Dr. Gandhi was appointed to this position in June 2000 
and was reappointed by Mayor Fenty in January 2007. As the 
independent CFO, Dr. Gandhi manages more than 1,000 staff 
members in the Tax and Revenue Administration and in the 
Treasury, Comptroller, and Budget Offices of the District of 
Columbia.
    Ms. Alice Rivlin served as the first Director of the 
Congressional Budget Office and as the Chair of the District of 
Columbia Control Board. Ms. Rivlin is an expert on urban issues 
as well as on fiscal, monetary, and social policy. Currently 
she directs the Greater Washington Research Project as a senior 
economic studies fellow for the Brookings Institution.
    Mr. Water Smith is the executive director of the D.C. 
Appleseed Center, a nonprofit public interest organization that 
addresses issues facing the Nation's Capital. Prior to his 
position with D.C. Appleseed, Mr. Smith was a partner for 16 
years with the city's largest law firm, Hogan and Hartson.
    It is the committee's policy that all witnesses to appear 
before the committee and submit testimony shall be sworn. Can I 
ask you each to stand and raise your right hands?
    [Witnesses sworn.]
    Mr. Lynch. Let the record show that all of the witnesses 
have answered in the affirmative.
    Your entire written statements are entered into the record. 
I trust that you have been before this committee before but I 
just want to go over the ground rules. Those small boxes in 
front of you will indicate green, which means that you have 
time to submit your opening statement. When it turns to yellow, 
it means that you should probably conclude your statement. Then 
the red light means you have exceeded your time limit.
    So with that, Mayor Fenty, it is an honor to have you here 
before this committee. I welcome you. You are now recognized 
for 5 minutes for an opening statement.

  STATEMENTS OF ADRIAN M. FENTY, MAYOR, DISTRICT OF COLUMBIA; 
  VINCENT GRAY, CHAIRMAN, DISTRICT OF COLUMBIA CITY COUNCIL; 
 NATWAR GANDHI, CHIEF FINANCIAL OFFICER, DISTRICT OF COLUMBIA; 
 ALICE M. RIVLIN, SENIOR FELLOW OF ECONOMIC STUDIES, BROOKINGS 
  INSTITUTION AND DIRECTOR, GREATER WASHINGTON RESEARCH; AND 
    WALTER SMITH, EXECUTIVE DIRECTOR, DISTRICT OF COLUMBIA 
              APPLESEED CENTER FOR LAW AND JUSTICE

                  STATEMENT OF ADRIAN M. FENTY

    Mayor Fenty. Thank you very much, Chairman Lynch; Ranking 
Member Chaffetz; and distinguished subcommittee members 
including my own Congresswoman Norton, Chairman Towns, and 
others. It is my pleasure to be here today to speak to you 
about H.R. 1045, the District of Columbia Budget Autonomy Act 
of 2009, and H.R. 960, the District of Columbia Legislative 
Autonomy Act of 2009.
    Both bills, if enacted, would represent an important step 
forward for the District of Columbia and its residents. To that 
end, I would like to take a moment to recognize the outstanding 
work of the District's Representative in the House, 
Congresswoman Eleanor Holmes Norton, who for years has 
championed the bills before this subcommittee today and many 
others designed to grant the District the autonomy it deserves.
    These bills simply provide the District the same 
flexibility and autonomy afforded other jurisdictions around 
the country to ensure the efficient and effective delivery of 
services, a fundamental responsibility of good government.
    In 1973, Congress granted the District limited home rule 
powers and empowered the citizens of the District to elect a 
Mayor and a City Council. At the same time, however, Congress 
retained the power to review and approve all District laws 
including the District's annual budget. This makes the District 
unique among jurisdictions that perform State level functions, 
as the District does, in that Congress approves not only 
Federal funding for the District but also the spending of our 
local funds, a practice that ultimately hinders good 
government.
    The District government of today is not the District 
government of the 1990's which saw the creation of the 
congressionally mandated Control Board because of unsound 
financial practices. Thanks in part to the work of my 
predecessor, Mayor Anthony Williams, we have come a long way 
since then. We are not going back.
    This year the District submitted to Congress its 14th 
consecutive balanced budget. We continue to exercise sound 
financial management practices, a fact validated by the A+ 
credit rating awarded to our bonds by the Nation's rating 
agencies. I am confident Dr. Gandhi will speak to the 
significance of that in a few minutes but I hope my point is 
clear. The District's fiscal house is in order. The time has 
come to lessen the burdens imposed by congressional approval of 
the District's budget.
    Current law subjects the District's budget to the Federal 
appropriations process which requires District agencies to plan 
their budgets almost a year in advance to allow for 
congressional approval. The approval process often causes 
unnecessary delays in service delivery and prevents the 
District from responding quickly to changing public needs.
    As a primary deliverer of services, local governments can 
only be effective if they can respond to changing circumstances 
in a timely and responsive manner. Unfortunately, Congress 
fails to approve the District's budget on time virtually every 
year, resulting in a near 3 month delay on average, a period in 
which critical new investments cannot be made. The District 
also faces challenges over the course of the fiscal year as any 
midyear adjustments caused by changes in revenue must be 
reviewed by Congress.
    Many of the issues I have raised regarding budget autonomy 
also apply to the issue of legislative autonomy. Article 1, 
Section 8 of the Constitution allows the House and Senate to 
examine every piece of legislation by the Council. Depending on 
the nature of the legislation, however, we must wait 30 or 60 
legislative days for passive congressional approval before 
legislation becomes law. As I said in my testimony on this 
matter 2 years ago, this makes me the only chief executive of a 
city or State in this country for whom the act of signing 
legislation does not make the legislation final. It also means 
the Council of the District of Columbia passes hundreds of 
bills every year that must await congressional approval, the 
vast majority of which are of no interest to Congress 
whatsoever.
    The limited legislative autonomy granted by the bill 
proposed by Congresswoman Norton would maximize the use of 
taxpayer dollars, reduce inefficiencies caused by a complicated 
legislative process required to comply with Federal law, and 
allow the District to realize a greater measure of self 
government. I urge this Congress to take swift action on these 
two pieces of important legislation.
    Thank you for the opportunity to testify today. I am happy 
to answer any questions you may have.
    [The prepared statement of Mayor Fenty follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.011
    
    [GRAPHIC] [TIFF OMITTED] T7789.012
    
    [GRAPHIC] [TIFF OMITTED] T7789.013
    
    Mr. Lynch. Thank you. Chairman Gray, you are now recognized 
for 5 minutes.

                   STATEMENT OF VINCENT GRAY

    Mr. Gray. Thank you very much, Chairman Lynch. Thank you to 
the ranking member, Mr. Chaffetz, and to the other Members who 
have joined us today. I am Vincent C. Gray, chairman of the 
Council of the District of Columbia.
    I want to thank you again, Chairman Lynch, for holding this 
hearing on two important pieces of legislation--H.R. 1045, the 
District of Columbia Budget Autonomy Act of 2009, and H.R. 960, 
the District of Columbia Legislative Autonomy Act. I also want 
to thank my Congresswoman, Eleanor Holmes Norton, for 
introducing both of these bills on behalf of the District of 
Columbia.
    These two bills, along with the District of Columbia House 
Voting Rights Act, would provide the first real advancement of 
home rule in the District since the congressional enactment of 
the limited Home Rule Act over 30 years ago.
    The District must develop its budget in a timeframe that 
complies with the complicated and lengthy Federal 
appropriations process, as has been stated. The Federal 
appropriations process forces the District to develop its 
budget months in advance of the timeframe needed by the city. 
In fact, the District has had to adopt the Federal fiscal year 
of October 1st to September 30th when another fiscal year may 
be more appropriate to the city. The congressional 
appropriations schedule prevents the District from using more 
current revenue estimates and expenditure needs that would lead 
to a budget based on better and more complete data.
    In the last several years, Congress has granted approval of 
the District's local budget by the beginning of the fiscal year 
without approving Federal appropriations. But that timely 
approval is not guaranteed for every year. The approval of H.R. 
1045 would provide that guarantee by removing the approval of 
the District's local budget by the Congress. Under the proposed 
legislation, Congress would still maintain its constitutionally 
established oversight authority.
    Half of our total budget is funded by local dollars 
generated within the District of Columbia. The local budget is 
funded by local District revenue, not Federal dollars. This 
reason alone justifies why the District should be allowed to 
approve its own budget.
    I believe the District has earned the right to budget 
autonomy. We have come from under the authority of the 
Financial Control Board. We have maintained a strong financial 
position, including a fund balance of $1 billion. We have 
received clean audits for the last decade. Bond rating agencies 
have consistently increased our ratings. We have strong 
internal financial controls.
    On the issue of legislative autonomy, after 35 years the 
process for enacting laws in the District needs to be revised. 
This process once again denies District residents the basic 
right granted to other U.S. citizens--the right to enact our 
own local laws. What is even more interesting is the fact that 
four territories have been allowed to enact their own laws 
without congressional review.
    The current process involves a review period of 30 
legislative days for civil laws and 60 legislative days for 
criminal laws. Because the actual legislative days depend on 
when Congress is in session and not on calendar days, enactment 
of many District laws is delayed well beyond the 30 or 60 days 
involved. This prevents the city from enacting laws that are 
important to addressing the continuous and often changing needs 
of the city in a timely manner. An example of this was the 
enactment by the Council of updated terminology found in the 
D.C. Official Code changing the word ``handicap'' to 
``disability.'' The congressional review for this change was 9 
months.
    In order to address the needs of government, the Council 
must use a Byzantine process of passing laws on an emergency, 
temporary, and permanent basis. A bill passed on an emergency 
basis is enacted for only 90 calendar days. Because many pieces 
of legislation passed by the Council do not complete their 
congressional review during the emergency enactment period, the 
Council must also pass temporary laws that are in effect for 
225 days following the end of the emergency enactment period. 
In addition, the Council must pass the permanent bill so that 
ultimately there is a final law that becomes part of the D.C. 
Code.
    In fact, in most of the years between 1997 and 2008, 
emergency and temporary bills have amounted to over two-thirds 
of the bills enacted by the Council. We have appended to our 
testimony a graphic example of that which hopefully you will 
take a look at. But just within the last Council period that 
ended in 2008, we had over 600 laws that were passed in the 
District of Columbia; 465 of those laws were emergency and 
temporary laws in order to be able to deal with the very 
difficult process that we face as a result of the current 
provision under which we operate.
    Now is the time to grant the District the right to self 
determination, budget autonomy, legislative autonomy, and the 
right to voting representation. I ask you, Chairman Lynch, and 
the other members of the subcommittee to grant the District 
government the self determination that all other governments in 
our country enjoy and to move our residents toward more full 
citizenship in this Nation.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Gray follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.014
    
    [GRAPHIC] [TIFF OMITTED] T7789.015
    
    [GRAPHIC] [TIFF OMITTED] T7789.016
    
    [GRAPHIC] [TIFF OMITTED] T7789.017
    
    [GRAPHIC] [TIFF OMITTED] T7789.018
    
    [GRAPHIC] [TIFF OMITTED] T7789.019
    
    [GRAPHIC] [TIFF OMITTED] T7789.020
    
    [GRAPHIC] [TIFF OMITTED] T7789.021
    
    [GRAPHIC] [TIFF OMITTED] T7789.022
    
    [GRAPHIC] [TIFF OMITTED] T7789.023
    
    [GRAPHIC] [TIFF OMITTED] T7789.024
    
    [GRAPHIC] [TIFF OMITTED] T7789.025
    
    Mr. Lynch. I thank you, sir. Dr. Gandhi, you are now 
recognized for 5 minutes for an opening statement.

                   STATEMENT OF NATWAR GANDHI

    Mr. Gandhi. Thank you, Mr. Chairman. Good morning, Mr. 
Chairman, Chairman Towns, Ranking Member Chaffetz, our own 
Congresswoman Norton, and members of the committee. As you 
pointed out, I am Natwar Gandhi, chief financial officer for 
the District.
    I am here to testify today and wholeheartedly endorse 
expanding the authority of the District to manage its own 
financial affairs. Not only do I believe that the District's 
elected leadership has demonstrated its ability to adhere to 
principles of fiscal responsibility, I also believe that 
greater budget autonomy would provide the citizens of the 
District as well as visitors with the highest quality of public 
services in a timely manner.
    The chart that appears before you, Mr. Chairman, is a 
history of the remarkable fiscal comeback achieved by the 
District over the past dozen years. Our fiscal low point 
occurred in 1996 when the General Fund balance hit a negative 
$518 million. Through the efforts of the elected leaders and 
the Control Board, we were able repeatedly to balance the 
District's fiscal operations and the Control Board was 
deactivated in 2001. Between 1996 and 2001, there was a $1 
billion increase in the fund balance. But the real test for the 
District was the challenge of sustaining fiscal stability in 
the post-Control period. As you can see at the end of 2005, the 
General Fund balance rose another $1 billion to $1.6 billion, a 
turnaround of more than $2 billion.
    This improvement was reflected in the credit ratings 
assigned to the District by the major bond rating agencies. Our 
bond ratings, which were junk bonds in the mid-1990's, were 
upgraded to the current A+ category by all three rating 
agencies simultaneously. Indeed, the turnaround by the District 
was faster than any major city that experienced severe fiscal 
distress including Philadelphia, Cleveland, Detroit, and New 
York.
    In addition, our income tax bonds--issued for the first 
time in March of this year--were assigned a rating of AAA, the 
highest possible rating by Standard and Poor's, and AA by 
Moody's and Fitch. I should note that the initial offering of 
$800 million in income tax bonds has been nominated the ``deal 
of the year'' by Bond Buyer magazine. This is a remarkable 
achievement for a city that was in dire financial straits only 
a dozen years ago.
    Let me note here that the District and nearly every other 
State and local government in the Nation have been profoundly 
affected by financial problems because of the depth and 
duration of this recession. What will distinguish the District 
when we look back at this period is our absolute commitment to 
balancing our budget. Mayor Fenty, Chairman Gray, and the 
Council reacted quickly each time there was a revenue re-
estimate to close the budget gaps that were created by lower 
forecasts.
    I would now talk about budget autonomy. Under the current 
law, all District spending is authorized by the Congress 
through the Federal appropriation process irrespective of the 
sources of the revenue.
    In the District's 2010 proposed gross budget of $8.8 
billion, about $6 billion or 68 percent comes from revenues 
raised through local sources. Only $188 million in Federal 
payments were specifically requested from Federal sources. The 
balance is comprised of formula-based Federal grants which are 
available to all jurisdictions nationwide.
    I would argue that only Federal payments that are 
specifically and uniquely earmarked for the District should be 
appropriated by the Congress.
    If the District Council were able to set its own schedule 
to enact the budget, the Mayor and the legislature could always 
rely upon revenue estimates based on more current data. 
Currently, the budgets are based in large part on revenue 
estimates completed in February, some 7 months before the start 
of the new fiscal year in October and a total of 20 months 
before the end of the fiscal year. The District does not get 
actual data on how accurate these revenue estimates are and 
whether budget expenditures are fully covered until after the 
end of the fiscal year, almost 2 years later than the budget 
estimates that were provided at the beginning.
    In summary, the District's leadership has the will and the 
necessary resources to make informed decisions and the District 
has a proven record of functioning in a fiscally responsible 
manner.
    Mr. Chairman, this concludes my remarks. I will be 
delighted to answer any questions you may have.
    [The prepared statement of Mr. Gandhi follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.026
    
    [GRAPHIC] [TIFF OMITTED] T7789.027
    
    [GRAPHIC] [TIFF OMITTED] T7789.028
    
    [GRAPHIC] [TIFF OMITTED] T7789.029
    
    [GRAPHIC] [TIFF OMITTED] T7789.030
    
    [GRAPHIC] [TIFF OMITTED] T7789.031
    
    [GRAPHIC] [TIFF OMITTED] T7789.032
    
    [GRAPHIC] [TIFF OMITTED] T7789.033
    
    [GRAPHIC] [TIFF OMITTED] T7789.034
    
    [GRAPHIC] [TIFF OMITTED] T7789.035
    
    [GRAPHIC] [TIFF OMITTED] T7789.036
    
    [GRAPHIC] [TIFF OMITTED] T7789.037
    
    [GRAPHIC] [TIFF OMITTED] T7789.038
    
    Mr. Lynch. Thank you, sir. Ms. Rivlin, you are now 
recognized for 5 minutes for an opening statement.

                  STATEMENT OF ALICE M. RIVLIN

    Ms. Rivlin. Thank you, Mr. Chairman and members of the 
committee. Thank you for holding this hearing.
    I am happy to be here to discuss greater autonomy for the 
District of Columbia. I strongly support both the bills before 
you but I will confine my remarks to budget autonomy.
    I believe that greater autonomy for the District of 
Columbia is a test of the seriousness of Congress's commitment 
to democracy. The United States is justifiably proud of our 
democratic tradition. We send our finest young men and women to 
faraway places to fight and die for democratic ideals. Our 
national leaders advocate democracy around the world. But right 
here at home, Congress apparently doubts that the citizens of 
the District of Columbia can be trusted to elect leaders who 
will make wise decisions about local policy and even about how 
to spend our own locally collected tax revenue. When Congress 
passed the Home Rule Act in 1973, it retained ultimate control 
over D.C. legislation, budgeting, and borrowing.
    At that time, congressional skepticism was understandable. 
The citizens of the District had been ruled like colonial 
subjects for a long time and had no experience with electoral 
politics or self government. And the inexperience showed when 
the city faced fiscal crisis in 1995. And I believe that the 
Congress, working with the Clinton administration, took the 
necessary and appropriate action when it created the D.C. 
Financial Resources Management and Assistance Authority--that 
was its real name--better known as the Control Board. That same 
legislation created an independent office of the chief 
financial officer, a much needed contribution to strengthening 
fiscal oversight in the District. As the CFO has said, Control 
Board actions, supported by the City Council combined with an 
improving economy, turned the District's budget outlook from 
dismal to positive in a very short time.
    Young democracies learn from their mistakes and the 
District of Columbia government has amply demonstrated in 
recent years that it learned from the experience of the 1990's 
and is able to manage its own resources responsibly. It has 
balanced its budget every year since the control period ended 
and earned clean audits, albeit with some expressions of 
concern from the auditors from time to time. It has built up a 
large fund balance and significant cash reserve. Growing Wall 
Street respect for the District's financial management has been 
reflected in increasingly favorable ratings for its general 
obligation bonds and a AAA rating for its recent income tax-
backed bond issue, as the CFO has noted.
    Now is the time for Congress to show its commitment to 
democratic government by trusting the citizens of the District 
of Columbia through their elected officials to handle their own 
fiscal affairs without interference or delay from Congress. In 
fact, in recent years Congress has interfered far less than it 
used to in the District's budget and tried to accommodate the 
District's needs by keeping District appropriations from 
getting caught in lengthy disputes over Federal spending bills 
that drag on long after the budget year has begun. This 
confidence is reassuring but it should be reflected in law.
    If H.R. 1045, the District of Columbia Budget Autonomy Act 
of 2009, were enacted, District officials could design their 
own process for coming to budget decisions. Once a budget 
reflecting spending out of its own revenues was passed by the 
Council and signed by the Mayor, it could not be altered by 
Congress or delayed by the congressional appropriations 
process. Budget autonomy for the District is a win-win for the 
District and the Federal Government as well a demonstration of 
national confidence in the democratic process.
    Thank you, Mr. Chairman and members of the committee.
    [The prepared statement of Ms. Rivlin follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.039
    
    [GRAPHIC] [TIFF OMITTED] T7789.040
    
    [GRAPHIC] [TIFF OMITTED] T7789.041
    
    [GRAPHIC] [TIFF OMITTED] T7789.042
    
    Mr. Lynch. Thank you. Mr. Smith, welcome. You are now 
recognized for 5 minutes.

                   STATEMENT OF WALTER SMITH

    Mr. Smith. Good morning. Thank you, Mr. Chairman. It is an 
honor for me to appear before this distinguished panel. It is 
also an honor for me to be a member of this distinguished panel 
this morning. I am from D.C. Appleseed. We are a nonprofit 
organization that tries to address the issues facing citizens 
of the District, and one of the issues that has always faced 
citizens of the District was striving toward getting the same 
kind of full democracy that other citizens of this country 
have. These two bills are an important step in achieving that 
greater democracy.
    The bill that I want to talk about is the legislative 
autonomy bill. It seems to me that bill is the right thing to 
do for three reasons. First of all, it is a fair and sensible 
thing to do and it is a practical thing to do. Second, it is 
completely consistent with what the Congress did in the Home 
Rule Act. And third, it is completely consistent with the 
District Clause authority that the Congress has and will retain 
if this bill is passed.
    What makes it such a practical thing to do is that the 
Congress has not used this layover authority once in almost 20 
years. It has only used it three times since the Home Rule Act 
was passed. Congress has found other means and methods to 
review actions by the D.C. Council. And yet, as Chairman Gray 
pointed out, the Council has to continue to bombard you and 
members of your staff with pieces of legislation, the majority 
of which are designed to address the fact that they have to 
have emergency bills and temporary bills to be a gap-filler.
    In fact, the numbers are actually staggering. Since Home 
Rule, 4,400 pieces of legislation have been passed. They are 
sent to 11 different places upon the Hill, which means almost 
48,000 pieces are coming up here. As Mr. Cummings pointed out, 
this avalanche of documents is unnecessarily burdensome to the 
Congress. Presumably Members of Congress and their staff are 
looking at these pieces as they come up to no effect at all.
    As the Home Rule Act itself said when passed, the purpose 
of the Home Rule Act was to grant to the inhabitants of the 
District of Columbia powers of local self government and to 
relieve Congress of the burden of legislating upon essentially 
local District matters. This bill advances that very important 
purpose of the Home Rule Act.
    The other important point to make is that even if you 
remove the layover provision, you retain the full authority and 
responsibility under the District Clause to review and revise 
any legislation as you choose, as the Home Rule Act otherwise 
points out. But it is important to remember, and I urge upon 
you what the Framers had in mind when they first adopted the 
District Clause: It was to protect the Federal Government's 
interest in the national capital. The purpose was not to 
entrust to the national legislature the burden and the 
responsibility of legislating upon local matters.
    I would just urge upon you, if you ever want to read what 
the Framers had in mind, it is contained in Federalist No. 43, 
which James Madison wrote. Let me just quote what I think is 
the most important part of that Federalist No. 43 for purposes 
of the legislative autonomy bill before you today. He said, 
``Residents of the District,'' this has to do with ceding land 
for purposes of founding the Nation's Capital. He said 
residents of the Nation's Capital, ``will find sufficient 
inducements of interest to become willing partners of the 
session, because a municipal legislature for local purposes, 
derived from their own sufferages, will, of course, be allowed 
them.''
    Mr. Madison was recognizing that the District Clause was 
designed to protect Federal interests, not to take away from 
the citizens who lived in what would become the Nation's 
Capital the right to have their own self government and to 
decide local issues for their own municipal legislature.
    So I applaud Ms. Norton and the supporters of this bill 
because this bill takes a step--a practical, fair step--toward 
achieving what James Madison was talking about so long ago.
    [The prepared statement of Mr. Smith follows:]

    [GRAPHIC] [TIFF OMITTED] T7789.043
    
    [GRAPHIC] [TIFF OMITTED] T7789.044
    
    [GRAPHIC] [TIFF OMITTED] T7789.045
    
    [GRAPHIC] [TIFF OMITTED] T7789.046
    
    [GRAPHIC] [TIFF OMITTED] T7789.047
    
    [GRAPHIC] [TIFF OMITTED] T7789.048
    
    [GRAPHIC] [TIFF OMITTED] T7789.049
    
    [GRAPHIC] [TIFF OMITTED] T7789.050
    
    [GRAPHIC] [TIFF OMITTED] T7789.051
    
    [GRAPHIC] [TIFF OMITTED] T7789.052
    
    Mr. Lynch. Thank you. I now recognize myself for 5 minutes.
    Mayor Fenty, Chairman Gray, I think you have all touched on 
one common point, and especially having Dr. Ghandi and his 
remarks. You spoke of the remaining safeguards and the various 
mechanisms that the District has in place to ensure proper 
financial management and integrity in the budget process. 
However, I do want to point out that even absent the current 
protocol for congressional review, many of the financial 
benchmarks that Dr. Ghandi and others have referred to derive 
directly from the District of Columbia Financial Responsibility 
and Management Assistance Act of 1995, such as the 
reinstitution of a control board. And there are other 
constraints in the event the city might fail to meet its 
financial obligations.
    While I raise that concern, I acknowledge, as the Mayor has 
pointed out, that 14 consecutive budgets have been balanced and 
there is a substantial and admirable record of fiscal 
responsibility. But I just want to be reassured here that, at 
least in my reading of Ms. Holmes Norton's legislation, those 
checks and balances would remain in place, those would continue 
to be adhered to. I just want to make sure that we are on the 
same page. Is that your understanding?
    Mayor Fenty. Yes, Mr. Chairman. And I think it is important 
to note that the people of the District of Columbia really 
enthusiastically support the independent CFO, as we also 
enthusiastically support something else created by the Control 
Board which are the fiscal impact statements. No bill passed by 
the Council of the District of Columbia can move forward even 
for my signature unless the CFO has authorized that the dollars 
are there to go along with the bill. So there are a lot of 
local safeguards that will still remain in addition to the 
Federal safeguards that Mr. Smith just talked about.
    Mr. Lynch. All right.
    Mr. Gray. Mr. Chairman. Chairman Lynch, that is the 
understanding of the Council as well. And I think if you look 
at the controls that exist, those that we have added, it is 
really, I think, a picture of how a municipality ought to be 
run in this instance. For example, just to echo what the Mayor 
said and to build on that, the Council no longer permits a bill 
even to be reported out of a committee until we have a fiscal 
impact statement from the CFO indicating that we have the 
financial wherewithal to be able to effectively implement that 
legislation. There was a time when the Council permitted a bill 
to get to second reading before the fiscal impact statement had 
to be available. But we have eliminated that. And those are the 
kind of controls that we continue to put in place because we 
heartily respect the past and use that as an opportunity to 
continue to build on our controls.
    We, too, strongly support the independent CFO and work very 
closely with them. I think that was never more evident within 
the last year than when we had four instances where there were 
revenue estimates that were lower than the previous one and we 
all worked effectively together to create a balanced budget for 
the District of Columbia, properly in the neighborhood of $600 
or $700 million revenue estimates. But again, at the end of the 
day, we had a balanced budget as a result of that.
    Mr. Lynch. Thank you, Mr. Gray.
    Mr. Ghandi. If I may comment on that, Mr. Chairman? I think 
both the Mayor and the chairman have pointed out so well that 
the institutions of the chief financial officer, the 
independent CFO, have been very well placed now in the conduct 
of the government. It has been institutionalized. Also the 
various features of the CFO--the independence, the 5-year 
balanced budget, making sure that for reoccurring expenditure 
you have reoccurring source--all of that has been properly 
implemented by the CFO. And a budget will not be forwarded to 
the Congress or even to the Mayor and Council unless it is 
properly balanced and certified so by the chief financial 
officer.
    I think the test of the whole office and CFO is in the 
practice. In my 10 years as a CFO, most of those years post-
Control Board, I have been extremely gratified by the respect 
that the Mayor and the chairman and the Council have shown to 
the office of the CFO.
    Mr. Lynch. Thank you. My time has expired. I now yield 5 
minutes to the ranking member, Mr. Chaffetz of Utah.
    Mr. Chaffetz. Thank you, Mr. Chairman. Thank you all for 
being here. I appreciate it. Our hope and interest is in what 
is in the best interest of the District of Columbia and in the 
United States of America. I happen to believe that a good 
collaborative effort is one that our Framers had envisioned. 
And that as you make the case that the city is working so well 
and is financially prudent and has good budget stopgaps in 
place and checks and balances, I can only wish the Federal 
Government would have some of that same discipline before it 
goes off and puts more and more literally trillions of dollars 
on our kids' future on just the credit card. So I wish we had 
some of the financial controls of discipline that are obviously 
implemented at the city.
    Mr. Chairman, let me ask you first, you said in your 
testimony, ``The District has clearly demonstrated that we have 
earned the right to budget autonomy.'' You obviously are making 
the case that everything is going so well. At the same time you 
also say that ``all other State governments in our Nation have 
this flexibility.'' My concern is that the District of Columbia 
is not a State. It is not a State and it is dealt with 
differently. I guess I take issue with that characterization of 
other States. And perhaps it was just a typo, but for those of 
us that are concerned about that, I truly am concerned about 
that.
    If things are going so well, what sort of grade would you 
give the Mayor?
    Mr. Gray. Well the legislation is not about the Mayor's 
performance but obviously we work well with the Mayor. Over the 
last 3 years we have worked well to try to create a balanced 
budget and I think the evidence is in the audits, the evidence 
is in the fund balance that you see portrayed over there, it is 
evident in how this jurisdiction has been run.
    Mr. Chaffetz. I appreciate it. I have such little time. I 
appreciate it. I guess what I was hoping to hear, and I did 
hear, is the spirit of cooperation.
    Mr. Gray. Exactly right. Cooperation.
    Mr. Chaffetz. That same sort of cooperation I think can 
happen between the city and the Congress. One of the statistics 
that jumps out along the way is how infrequently the Congress 
actually does inject itself into some very volatile issues. But 
I do think it is that sort of check and balance within the 
constitutional framework that is important to us going forward.
    Mayor, if I can go to you because, again, my time is so 
short? I want to talk for just a moment if I could about the 
Opportunity Scholarship Program. Do you support the 
reauthorization of the Opportunity Scholarship Program in the 
District of Columbia, including entry for new students?
    Mayor Fenty. As contained in the three sector approach 
which has been a part of the submission from the President in 
both the past administration and the current, yes.
    Mr. Chaffetz. And I need to jump quickly. Taking that same 
kind of concept of autonomy, one of the issues that has come up 
is about the same sex marriage law. As you are here supporting 
greater autonomy for the District of Columbia, would you extend 
that principle to the local voters in the form of referendum on 
same sex marriage law as has been done in 31 States?
    Mayor Fenty. The short answer is no. The longer answer is I 
believe the people of the District of Columbia have elected a 
fabulous Council of the District of Columbia who has all the 
tools necessary to make the type of decisions on what laws 
should and should not be passed.
    Mr. Chaffetz. Chairman, did you want to address that?
    Mr. Gray. My answer is no as well, Congressman Chaffetz. We 
were elected to represent the people. I think the Council of 
the District of Columbia has done that extremely well. We 
tackle very difficult issues every day. When you look at school 
governance, that certainly was an issue.
    Mr. Chaffetz. I want to stick to this issue.
    Mr. Gray. Well, I am trying to give you an example of how 
we have decided issues as a Council that I think are analogous. 
I think school governance, building a----
    Mr. Chaffetz. My time is so short. I am disappointed that 
the people are not given an opportunity to vote on this issue. 
And if there is confidence in the Council and others that this 
would pass, then allow the vote. But I think we have seen in 31 
States, again different than the District of Columbia, it has 
passed 31 times in a row in opposition of the same-sex 
marriage.
    Last question. The administration is pushing to take over, 
at least there is a suggestion that it should take over the 
safety components dealing with mass transit, specifically like 
the Metro and whatnot. What is your reaction to that? Should 
that be something of greater autonomy to the city? And I 
recognize it goes into other States and whatnot. But is the 
administration moving in the right direction?
    Mr. Gray. From what I understand, the administration is 
looking at it on a national level. I have not done the proper 
level of inquiry. Once we do, we would be glad to present you 
with the full views of the local government.
    Mr. Chaffetz. Thank you, Mr. Chairman.
    Mr. Lynch. I thank the gentleman. The Chair now recognizes 
the gentle lady from the District of Columbia, Ms. Eleanor 
Holmes Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Let me quickly ask Mr. 
Gandhi this. For years, I believe you said--you noted this, of 
course, this is a recession year--that the District had what I 
recall was the greatest surplus in the United States; was that 
the case? It is surplus, which, of course, it is now having to 
use because of the recession. But is it not the case that for 
many years the District surplus outranked that of any State in 
the Union or any city?
    Mr. Gandhi. We were among the States, or I should say 
cities that have enjoyed substantial surpluses. Ms. Norton, I 
was in Chicago just 2 weeks ago meeting with the chief 
financial officers of other cities such as Chicago, Los 
Angeles, New Orleans, Denver, etc. Of all those places, our 
city has done extraordinarily well comparatively in terms of 
our ability to enjoy the surpluses.
    Ms. Norton. The notion that the District would and did pile 
surpluses, did not spend it, and has fared better than many 
cities during this recession is a source of pride to the city 
and a pride in the work that all of you have done.
    Chairman Gray, I know this is a ballpark number but given 
how you have testified you have to jump through hoops just to 
get legislation into effect until we say it is OK or take no 
action, how much of your time, what ballpark figure of your 
time is spent on passing redundant laws or seeing that laws do 
not go out of effect while you are waiting for the Congress 
layover period to recede?
    Mr. Gray. Probably, Ms. Norton, in excess of 50 percent.
    Ms. Norton. In excess of?
    Mr. Gray. Of the time.
    Ms. Norton. Of 50 percent, did you say?
    Mr. Gray. Yes. As I indicated in my testimony, two-thirds 
of the laws that we have passed since 1997 in the Council have 
been laws that deal with emergencies and temporaries, all of 
which is an artifact of this system that we operate under. 
There is no question that some of those emergencies would have 
to be adopted in any event because of the exigent need. 
However, when you ferret out those that are associated with the 
process that we have to operate under here with the Congress, 
all the temporaries are associated with this process so it is 
probably looking at two-thirds of the legislation being in that 
category. Pulling out the legitimate emergencies that exist 
within the city, it is probably 50 percent of our legislative 
time.
    Ms. Norton. So here we have half the Council's time spent 
redundantly when--it is a big, complicated city--when it needs 
to get to the business, and it does so very well. But I think 
it makes the point about inefficiency.
    My last question really goes to a point that is seldom 
mentioned but it is really a cardinal point in all of this. I 
mentioned it in passing, the June 30th fiscal year. I would 
like the comments of the panel on this. Perhaps I will use an 
example. Mayor Fenty has done something very important in the 
District of Columbia, with the cooperation of Chairman Gray who 
deserves a lot of credit for hurrying the whole Council to do 
what very few States and cities have done, to say Mayor Fenty, 
you are in charge of the schools of the District of Columbia. 
They have given him everything except the ability to make sure 
schools have the same efficient start time. Of course he 
started them on time as every other jurisdiction, our neighbors 
in Virginia, for example, ready to go July 1st unless something 
untold happens.
    I would like you to describe using the schools perhaps as 
an example, perhaps you have other examples--this is for anyone 
on the panel, Mr. Smith is a former corporation counsel which 
we now call Attorney General; Ms. Rivlin and Mr. Gandhi are 
equally familiar with this--but I would like to know what 
difference it would make, what this bill would mean, for 
example, if you could decide--of course you might decide 
whatever--but you could decide that instead of September 30th 
when school has already started as the beginning of your fiscal 
year, that, for example, like most States July 1st could be the 
beginning of your fiscal year. I would like you to describe 
what that would mean as far as all of you are concerned.
    Mayor Fenty. Two quick things, Congresswoman. This year 
after the budget was passed, just because of the revenue 
forecast, the school system already was looking at less revenue 
of about $20 million going into the new school year. If the 
budget projections are closer to the time it is passed, you are 
not going to have that type of deficit. On a global 
perspective, we have already had, I think, two or three 
meetings with all of our cabinet heads--and it is only 
November--in preparation for the budget that will not be passed 
and ready until next October 1st. So we are almost meeting to 
prepare for next year's budget before the current year's budget 
is even passed.
    Ms. Norton. Chairman Gray.
    Mr. Gray. I think for the Council, I think for the public 
schools, public education is an excellent example because what 
we have now is a situation in which the planning for a 
particular school year spans 2 fiscal years. We have part of 
that budget that begins--the latter part, if you will--in the 
current year, for example, and spans the period from August 
until the end of September. Then we have the other part of the 
school year in the next fiscal year. It makes for very 
difficult planning. And the schools, again, are an excellent 
example. If we could change the fiscal year to July 1st, the 
entire school year would be included in one fiscal year.
    Mr. Gandhi. If I might echo that comment? I would agree 
about the schools. Further, the fundamental problem that we 
face here is that we provide a revenue estimate to the Mayor 
and the Council in February. The budget is submitted to the 
Hill in June. The Congress does not act until October 1st in 
terms of its continuing resolution if there were no agreement. 
So there is a long delay between when we provide revenue 
estimates and when the budget is enacted. And the local 
government, we do not have a chance to adjust, to readjust our 
budgeting in light of changing financial conditions.
    Ms. Rivlin. I have very little to add to this except to 
stress that all agencies are inconvenienced by this long delay. 
But it is the schools, DCPS and the charter schools and the 
universities that have to get started without knowing exactly 
what the budget is going to be.
    Mr. Smith. The only thing I would add, Ms. Norton, is that 
having tried to run a District agency when I was at Corporation 
Council's Office, not knowing what you can do and how much you 
can spend and when puts significant limitations on efficiency 
within the District.
    Mr. Lynch. OK, thank you. The gentle lady's time has 
expired. I yield myself just 30 seconds.
    My own experience with budgeting is that your revenue 
projections drive your budget. What you are being forced to do 
is to come up with a budget prior to getting your revenue 
projections. You have a considerable amount of lag time here 
where over the course of time those projections that you do 
have can be completely destroyed by the passage of time. So 
there are a couple of things going on there that put you at a 
severe disadvantage. I understand that.
    The Chair now recognizes the gentleman from--I am sorry, I 
did not see Mr. Bilbray come in. I recognize Mr. Bilbray, the 
gentleman from California, for 5 minutes. Welcome.
    Mr. Bilbray. If I want to be treated like this, I can go 
home Mr. Chairman.
    First of all, let me clarify. Mr. Mayor and Mr. Chairman, I 
was a mayor in my 20's in a young, small little working class 
community on the border in California. I also served, like the 
gentleman from Virginia, as the chairman of a county of 3 
million.
    This is my chance to say something about this. I was 
absolutely appalled when I came here in the 1990's and saw what 
appeared to be the gross abuses of local control by the local 
community. Freeways were not allowed to go through because of 
Ward politics. Maybe it is because I am a Californian that I 
can't comprehend the ability of politics to stop a freeway dead 
in its tracks, not just once but twice. Though, I have seen it 
happen.
    The other thing I have just got to tell you is, Mr. Smith, 
that this District was created for a special reason. This 
little area between the Anacostia and the Potomac called Turkey 
Buzzard Point was chosen to be a no man's land from political 
influences from the outside or from within, much like we do 
with our military reservations, too.
    But I see the effect of the lack of appropriate control of 
the jurisdiction. I have staffers who resign and go home 
because they have been attacked, they have been threatened, or 
they have almost been murdered.
    I am constantly reminded as a former local government 
official that the Constitution does give us the ability to 
authorize jurisdiction but not responsibility. The Constitution 
still lays that right in our lap. This is one of those things 
that Congress can't say is out of its jurisdiction. The big 
difference is that the same Constitution that gives States that 
jurisdiction--and the States are the ones that give cities 
their local control, not the Constitution. The Constitution 
does not take away that local control from other cities. It did 
in this one, in this city.
    So there is an issue here of the appropriateness of 
authorizing jurisdiction and thinking we can walk away from the 
ultimate responsibility of young ladies being attacked, roads 
not being completed, the congestion, and everything else that 
is our responsibility.
    I would just like to ask this down the line. Mr. Gandhi, 
you seem to appear to have done great things working with the 
local government when it comes to the budget process. I want to 
give credit on that. After all of that trashing, I want to say 
you guys have come a long way in a lot of ways. I still don't 
understand why you put traffic lights in traffic circles. It 
violates every traffic engineering thing I have learned, but 
that is a different issue. Why would we walk away from a 
successful program? Are we so sure that we will never go back 
to where we were? Your success is something I think we should 
build on and not abandon.
    Mr. Gandhi. Sir, I would give great credit to the Mayor, 
the chairman, and the Council. They are the elected leaders and 
they do the heavy lifting. Of course, there are institutions of 
an independent chief financial officer and all these good ideas 
have been built into that. But at the end of the day, it is the 
elected leaders who deserve a great deal of credit.
    I think all we are talking about and all I am going to 
comment about is the budget autonomy. That will make things 
easier for them, for me, and for the District's citizens. So I 
think you want to keep that in proper perspective, sir.
    Mr. Bilbray. Mayor, I understand the culture of politics in 
Washington that you inherited. What I feel is the undue 
influence of public employees where basically government exists 
for employees and not for serving the public and everything 
else. I appreciate you have made some big changes there.
    But the concept, as a Californian, of not allowing voters 
to vote specifically on vary controversial issues is something 
that as a Californian, I don't accept. We specifically allow 
overriding of legislative intent. How do I go back and say to 
my constituents that as the State legislature of the city, let 
us just say it that way, I deny them the constitutional rights 
that we have in California of direct oversight on these very 
controversial issues?
    Mayor Fenty. Well, California is very unique when it comes 
to the referendum process. I think what you can say is that the 
people of the District of Columbia, just like the other 50 
independent jurisdictions in this country, have a different set 
of laws. Our laws have been made for some time and they work a 
certain way.
    If you look into our referendum and initiative processes, I 
think there is ample opportunity for citizens to actually take 
things to the ballot. There is also just as much opportunity 
for the Council of the District of Columbia to pass laws. I 
think it works. It is a very healthy balance in my opinion. 
That doesn't mean that what happens in California or in any 
other jurisdiction isn't healthy as well. It is up to the 
particular State.
    Let me just say one other thing. This is a very narrow law, 
as Dr. Gandhi just said. What we think we have proposed in 
support of Congresswoman Norton's law is that all of the fiscal 
restraints, fiscal safeguards, both Federal and local will be 
protected. But by passing this law what you will allow is my 
administration and successive administrations to run the 
government better while maintaining all of the Federal and 
local fiscal restraints that currently exist.
    Mr. Bilbray. I appreciate that. Just in closing, I 
appreciate the fact that the District is defending a republican 
form of government as opposed to a democratic initiative 
process. That constitutionality was a big issue in California, 
the fact that the Constitution does defend the republican form 
of government as opposed to democratic direct governance.
    I yield back, Mr. Chairman.
    Mr. Lynch. I thank the gentleman. The Chair recognizes Mr. 
Connolly, the gentleman from Virginia, for 5 minutes.
    Mr. Connolly. I thank the chairman and I thank my colleague 
from Ohio for yielding.
    By the way, I appreciate what my friend from California 
said but it is a very arguable point how well recall 
referendums and initiatives have worked in California. One 
wants to read a cogent critique of that. David Broder of the 
Washington Post wrote a book a few years ago that really lays 
out how special interest influences essentially coopted what 
was once seen as a reform at the turn of the 20th century. So 
there is another side to that.
    Mr. Smith, you are an attorney. You are familiar with the 
provision in the U.S. Constitution granting Congress in Article 
1, Section 8, Clause 17 exclusive legislation in all cases 
whatsoever pertaining to the District of Columbia?
    Mr. Smith. I am, yes.
    Mr. Connolly. When that provision was written in 1787, how 
many people lived in the District of Columbia?
    Mr. Smith. Very few.
    Mr. Connolly. In 1800 when the President of the United 
States, John Adams, was the first occupant to move into the 
White House, do you know how many people lived in the District 
of Columbia?
    Mr. Smith. It was still very few.
    Mr. Connolly. When the writers of the U.S. Constitution 
wrote this provision, is there any evidence that they 
envisioned the District of Columbia would eventually evolve 
into a vibrant metropolis with hundreds of thousands of 
residents?
    Mr. Smith. They were a prescient group but I doubt if they 
saw all of that, Mr. Congressman.
    Mr. Connolly. Anybody else on the panel want to take a stab 
at that one?
    [No response.]
    Mr. Connolly. Given that fact, is there any other city you 
can think of, Chairman Gray, where Congress interprets this and 
exercises the kind of oversight and control we do in the 
District of Columbia? For example, is there any other city in 
the United States where we condition voting representation to 
the competence of the local government?
    Mr. Gray. I am not aware of any, Congressman.
    Mr. Connolly. Is there any city or county you can think of 
where we condition voting representation here in the U.S. 
Congress on the quality and performance of the school system?
    Mr. Gray. Not to my knowledge.
    Mr. Connolly. Is there any city or county you can think of 
in the United States that, again, where we condition voting 
representation here in the U.S. Congress based on how high or 
low the crime rate might be?
    Mr. Gray. Not to my knowledge.
    Mr. Connolly. Disfunctionality or functionality of various 
municipal agencies?
    Mr. Gray. No.
    Mr. Connolly. Ability to balance a budget?
    Mr. Gray. No.
    Mr. Connolly. Really? Now, I would be interested in your 
thoughts and yours, Mayor Fenty. What would be the logic of 
this Congress using this clause of the Constitution, which 
clearly was intended for a Federal enclave that met 
periodically during the year and then pretty much shut down? It 
was never envisioned that D.C. would become a city with 
hundreds of thousands of citizens and then be denied the 
franchise, at least not as I read the Constitution or the 
history of the writing of the Constitution. What is your view 
about the exercise of this provision, our oversight 
responsibilities, and our conditionality of voting 
representation in the Congress based on that?
    Mr. Gray. I think it is clear to us that we have 600,000 
people who live in the District of Columbia who are 
disenfranchised. We have worked hard to try to get a vote for 
our Representative in this Congress, Ms. Norton. This issue 
around budget autonomy and legislative autonomy I think echo 
the point.
    We pay Federal taxes just like everyone else. We pay $3.5 
billion to $3.6 billion a year. Our sons and daughters and our 
family members go off to fight wars like everyone else. We do 
the same things that other citizens of the United States do, 
yet we do not enjoy the same rights, and that is the right of 
self determination. Frankly, being able to make decisions about 
our budget and being able to make decisions about our 
legislation, especially to move this city forward in a timely 
fashion, are part of full citizenship in this Nation.
    Frankly, if we had not crafted an emergency and temporary 
legislative process, we would have had experiences in the 
District of Columbia that would have slowed down the ability to 
make decisions which probably would have been criticized by 
this Congress and others because of our inability to move. Yet 
it is the process that we have been required to operate under 
that would have delayed those decisions that needed to be made, 
decisions that we knew needed to be made, Mr. Connolly.
    Mr. Connolly. An inability, if I can interject, created or 
generated by Congress because of our dithering over our 
oversight responsibilities. Is that correct?
    Mr. Gray. You said it very well.
    Mr. Connolly. Mr. Chairman, my time is up. But as a 
courtesy, if you would not object, I want to give the Mayor the 
opportunity to comment similarly.
    Mayor Fenty. Well again, just to sum up, Congressman, I 
think there are people who would take your view that the ``no 
taxation without representation'' clause of the Constitution is 
the one that needs to be paid more attention to and used to 
give us our full voting rights and representation. Those are 
issues for probably a broader debate on a different day.
    Today, in focusing on the clause that gives Congress 
jurisdiction over the District of Columbia, it seems that the 
law that has been crafted by Congresswoman Norton both gives 
the local officials the ability to spend our dollars more 
wisely and efficiently but doesn't abridge that particular 
clause. So it seems like what you rarely get in legislatures, 
having served on one for 6 years, is a win-win.
    Mr. Connolly. I thank you, and I thank the Chair.
    Mr. Lynch. I thank the gentleman. The Chair now recognizes 
the gentleman from Ohio, Mr. Kucinich, for 5 minutes.
    Mr. Kucinich. Thank you very much, Mr. Chairman. I want to 
welcome the witnesses. I speak in support of my colleague, Ms. 
Holmes Norton, for her commitment to equality in the District 
of Columbia.
    In some ways it seems like this discussion is almost 
surreal in that we could have a city in America that is still 
struggling for self determination while, as Ms. Rivlin stated 
in her testimony, we want to export democracy all over the 
world. Something about this really doesn't compute.
    We understand what the Constitution says. Ms. Holmes Norton 
has come up with, I think, a reasonable approach that would 
modify the cumbersome congressional oversight review process. 
It is a very reasonable approach that you have taken, Ms. 
Holmes Norton. And I think that the Congress certainly should 
be supportive of that.
    But when you look at it in a broader context, it is really 
ridiculous that the District of Columbia doesn't have true 
autonomy. Is someone afraid they are going to take over the 
United States of America? It almost seems like a riff on 
Leonard Wibberley's ``A Mouse That Roared''--declare war on the 
United States and be pacified and wealthy beyond your wildest 
dreams. I don't think that is going to be what the District of 
Columbia is about as it moves toward greater autonomy.
    We need to, as my colleague, Mr. Connolly, has suggested, 
look at the historical context here and look at the context of 
our Constitution. If there was ever a call for changing the 
Constitution and updating it, it is our relationship with the 
District of Columbia.
    We show a capacity for evolution in this Nation. There was 
a time when people who didn't own property could not vote, a 
time when women couldn't vote, a time when people of color 
couldn't vote, and a time when people under 21 could not vote. 
America has seen this capacity for evolution. So we change the 
Constitution. Each time we understood. But because of the 
popular support for those changes, it was a little bit easier.
    D.C. is here as an advocate on behalf of the people in the 
District. We need to help people all over America understand 
that this truly and should be a concern of all Americans. We 
shouldn't take out of our understanding the potential to change 
the Constitution in this regard.
    And while Ms. Holmes Norton certainly has been peerless in 
her advocacy of equality for the District of Columbia, it is 
important for your colleagues, Ms. Holmes Norton, to be heard 
from and to support your efforts in the boldest way possible. 
Because this really is a fundamental question: Whether you have 
the right for self governance.
    As a former mayor, I understand how important it is to be 
able to make decisions without having other people continue to 
try to re-cut your decisions. The essence of home rule in our 
city in Cleveland, home rule is modeled after the Federal plan 
of Government, with the mayor being the chief executive and 
three branches of government. The council in Cleveland is a co-
equal branch of government, but the mayor is the chief 
executive. That is the way to make government work for people.
    There is one correction I want to add to what Ms. Rivlin 
said. Cleveland's financial crisis in 1978 was a manufactured 
one where the banks tried to dictate to the city the sale of a 
municipal electric system as a precondition for the city 
getting credit. I mention that because that is a home rule 
issue, too, whether the city had the right to make its own 
decision to keep an electric system without banks saying you 
better get rid of that system or we are going to not give you 
credit.
    So the principle of home rule is joined to democratic 
theory. It is joined to the spirit and letter of our 
Constitution. Just because we haven't yet worked out that one 
provision doesn't mean that we can't find a way, with the 
wisdom of Ms. Holmes Norton, to adapt to where we are right 
now, give the District some additional flexibility, and then at 
the same time work with those of like mind who see that we 
really need to change the Constitution to make the District of 
Columbia a place that people can truly call their own through 
being able to have direct election of officials at every level.
    So I thank you, Mayor Fenty, for the work that you do, and 
all members of the panel for their forthright presentation of 
the needs of the people of the District. Thank you.
    Thank you, Mr. Chairman.
    Mr. Lynch. Thank you. Let me just ask, I don't know if 
everybody has more questions, but I have one.
    There is a certain aspect of this that Congress has a 
Constitutional responsibility. We are not suggesting abdicating 
that responsibility. What we are suggesting here, I think, is 
that in many cases Congress delegates the authority that is 
given to us through the Constitution. The question here that we 
are grappling with, and with which Ms. Eleanor Holmes Norton 
has grappled most intently, is that the way in which we 
delegate that responsibility has a whole lot to do with how 
efficiently that authority is implemented.
    We have done it in a way, I think, so far. It was improved 
upon back in 1973 with the Home Rule piece. But I think there 
are still some encumbrances on the city government in trying to 
do the job that we hope you would do. It is most clearly 
illustrated, I think, in the budget process where we ask you to 
comply with a budget requirement in a way that is virtually 
impossible. So I certainly understand the budgetary autonomy 
piece of this and how that could be worked out. I can envision 
a solution there.
    The one reservation I have is over issues that are 
inherently driven by Congress's presence here in the capital. 
That is the security of the District because of what we bring. 
We made you a target on 9/11. But for the fact that Congress 
and the seat of national Government is here, you would not have 
been a target. So there is a heightened level of security that 
is necessary because Congress is present here. I think that we 
need to make sure that job gets done in a very businesslike and 
appropriate fashion. We have great reservations, I should say 
on behalf of Congress, about delegating that authority to the 
degree that we don't have immediate responsibility and control.
    The other piece, obviously, is I think up to 40 percent of 
the real property in the District is controlled by the Federal 
Government as part of our ability to do our jobs that are 
Federal. Again, for that 40 percent of the property that is 
covered by the Federal Government, we need to have that same 
type of immediate impact through Congress's decisions.
    Outside of those two very real and different and immediate 
needs, Mayor, how do you think we can work this out in terms of 
giving you that flexibility that you need but keeping close for 
Congress our ability to impact those things that are inherently 
Federal in conducting our day-to-day business?
    Mayor Fenty. That is a great question, Mr. Chairman. From 
the way I read the legislation, I do not see how the laws that 
are already passed in the Council's normal course of business--
and I think it has been put on the record that they go through 
at almost 100 percent approval by the U.S. Congress--would 
change anything about the relationship between the Federal 
Government and the local government, expressly when it doesn't 
change the District laws which give the Congress the power to 
come back in at any point and make a statement about a 
particular law or particular budget that we pass. It is really 
just about the operations and efficiency of government.
    I would put on the record that 1 day we will have the 
bigger discussion about whether the District of Columbia gets 
full sovereignty and what you do with the more Federal parts of 
the government. But I don't think this legislation gets 
anywhere close to that since it merely just talks about the 
process and the time by which our laws become final.
    I would say that both in the past administration and in the 
current one, whether it is an inauguration or whether it is the 
many and varied and myriad threats that do come upon the city 
that we all call home, there is unbelievable cooperation 
between our first responders and the Homeland Security agencies 
and Federal law enforcement where you all have the privilege of 
overseeing their budgets.
    No matter what our structure, and certainly with the 
passage of this law, there has to be good management. The city 
is well prepared and I think the Federal Government is as well 
to continue that.
    Mr. Lynch. Thank you. Mr. Chairman, do you want to comment 
on that?
    Mr. Gray. Just to echo what has been a theme throughout 
this hearing, that is there is nothing about this legislation 
that changes Article 1, Section 8. That continues to vest in 
this Congress the authority to intervene where it may consider 
it appropriate to intervene. It simply gives us the ability to 
more flexibly and rapidly manage our affairs in the District of 
Columbia, especially around the passage of legislation and 
especially around the issue of budget.
    In my testimony I cited an example, and I chose it in 
particular, that it took 9 months for the District of Columbia 
to be able to change the term ``handicap'' to ``disability'' in 
our laws because of the requirement for congressional review. I 
can't imagine that anybody in the Congress would, first of all, 
object to such a change because it is far more dignified, or 
even more importantly, want to be involved in that kind of 
change at the local level in the District of Columbia.
    I go back also, Mr. Chairman, to the reality that in 35 
years we have had these disapproval resolutions used three 
times, the last time 19 years ago. I think that is a prima 
facie case for the ability of this city firstly, to manage 
itself, especially through difficult times; and second, the 
collaborative relationship that we have crafted with this 
Congress.
    Mr. Lynch. I thank you. The Chair now recognizes the 
gentleman from Utah, Mr. Chaffetz, for 5 minutes.
    Mr. Chaffetz. Thank you. Again, I appreciate everybody and 
their dialog. I think this is a healthy part of the process. I 
would hate to think that you would like to come here less 
often. [Laughter.]
    I do believe that the District of Columbia holds a special 
place in the hearts and minds of all the American people. There 
is only one capital of the United States of America. Our 
Constitution recognizes that.
    I think the gentleman from Ohio, a good friend, brings up 
an important point. If there is a discussion or an effort to 
change the Constitution, perhaps that is a separate discussion. 
I happen to disagree with it. I think it is divinely inspired. 
I think it says literally what it means. But as he brought up 
at the end of his comments an effort to perhaps change the 
Constitution, maybe we ought to have that discussion. It is 
certainly his right and prerogative to bring that up. I would 
oppose that just at first blush.
    But until it is changed, I have a hard time with the 
direction that these two pieces of legislation go. I have the 
greatest respect for what you do and how you do it and what the 
Representative brings to the table and her perspective. I have 
nothing but the utmost respect. But at the same time, those of 
us that believe wholeheartedly in the Constitution literally as 
it says, shouldn't be met with the vehemence that you sometimes 
get in standing tall on the Constitution.
    I would also take exception to the characterization that 
the budget process is some impossible feat given that chart 
that you are so willingly able to put up there. In fact, as I 
look back over the history--and I am still studying it and 
continuing to understand it--it was actually an enactment of 
Congress that created the independent CFO position that helped 
change the direction and consequently created a positive 
result.
    At the same time, there have been a host of challenges. 
There have been a number of things where maybe the changing of 
the word is something just innocuous and we don't need to deal 
with that. But I do believe that there is a role and 
responsibility for Congress to help make that determination 
because there have been very contentious subjects such as 
needle exchange, the second amendment issues, the Hyde 
amendment, budget scandals, and all sorts of things that have 
happened. You could argue that those would happen in other 
cities, too. But this is the unique provision set up by our 
Founders in our Constitution.
    I don't know if you would like to address that. It is not a 
direct question but it is just an approach. Mayor, I will give 
you the first stab at this. But that is where we are coming 
from, or at least where I am coming from.
    I want to applaud you for the success you have had but I 
want to hold your feet to the fire for the things that aren't 
going well. And that system of checks and balances and 
accountability and having to come up here to the Hill is a very 
healthy process. Yes, it is different than every other city in 
the United States of America. That is OK. That is good. That is 
the way our framers set it up.
    Mayor Fenty. Well, I think in any legislative debate there 
comes a point where you agree to disagree. I actually don't 
think we are at that point with this bill. I think if you are a 
Member of Congress and you have a particular personal position 
that is different than what has been voted out by the Council 
of the District of Columbia, after the passage of these two 
bills, it seems like you still have a vehicle to make your 
personal opinion known and to introduce some type of amendment.
    I think what this bill speaks to is more the running of the 
government. I think the case has been put there just by the 
sheer numbers of bills that come through here that don't raise 
any concerns for you. Having those go through an additional 6 
to 9 months, it does cost the District of Columbia time, 
energy, and resources. Could we manage our affairs otherwise? 
Sure. We are not going to say that we can't. But could we 
manage them better if the law were passed? I think we have put 
a good case before you that we could.
    Mr. Chaffetz. Mr. Chairman, my time has expired. I 
appreciate those comments. I still think we have the very best 
form of government and I think that check and balance, as 
expensive as it may be in dollars and time, is a worthwhile 
process. With that, I yield back my overtime. Thank you, Mr. 
Chairman.
    Mr. Lynch. Thank the gentleman. I want to recognize the 
gentleman from Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you so much, Mr. Chairman.
    Mrs. Norton. Could I ask the gentleman to yield? Could I 
ask my good friend, the gentleman from Missouri, if he would 
yield for a moment. I am due in the Senate at 12.
    Mr. Clay. Oh, sure.
    Mrs. Norton. I don't want to ask a question. I just want to 
say for the record because of Mr. Chaffetz's concern that even 
with needle exchange, which has cost lives and serious illness 
in the District of Columbia, all the plenary power of the 
Congress would remain to interfere with or, in your view, 
correct what the District is doing. And the proof of that is 
this Congress has already delegated partial home rule, home 
rule on everything but budget and legislation finality. So just 
do what you already have done in 1973.
    The only real concern, it seems to me, has been raised by 
the chairman. Is there any interference with the national 
Government's concern? That is a legitimate concern, Mr. 
Chairman. Of the three times in which the District laws have 
used the disapproval resolution, two of the three had to do 
with mistakes by the District. It had passed laws that 
interfered with the Federal presence.
    The budget and legislative autonomy bills before us deal 
with local laws, having nothing whatsoever to do with national 
concerns. Even so, you could intervene to overturn any of those 
laws. The only difference is the inconvenience of having us 
wait for months for our budget and months for our bills would 
no longer be there. You would have to move a bit more quickly.
    The chairman mentioned property in the District of 
Columbia, the Federal property. This property remains the sole 
jurisdiction and under the sole control of the Government.
    Finally, as a Member of the Homeland Security Committee, 
the chairman has raised an important point. What about the 
security of the Nation's Capital? For 10 years we have 
operated, almost 10 years now since 9/11, under a regime of 
partnership with the Federal Government to protect the security 
of the Nation's Capital. The truth is, Mr. Chairman, that they 
can't do it without our police force and without our resources. 
So they are joined at the hip when it comes to homeland 
security.
    And let us remember Federal supremacy. Even the D.C. 
National Guard is not controlled by the Mayor, as in other 
States. The D.C. National Guard is under the direct control 
already, and always Federalized, of the Federal Government. So 
Congress has taken care of its own security. And should there 
be any problem, under its plenary authority it could simply 
take over the whole city for security reasons. So thank you for 
raising that, Mr. Chairman.
    Mr. Lynch. I thank the gentle lady. Mr. Mayor, I know you 
had a time constraint and I don't want to delay you any 
further. So if you need to scoot, you can. I thank you very 
much for your time.
    Mr. Clay. Mr. Chairman, I did have some questions.
    Mr. Lynch. No, no. It is just the Mayor had a conflict and 
I am just giving him the courtesy of departing if he has to. I 
now recognize the gentleman from California.
    Mr. Bilbray. I would just like to give the Mayor the chance 
to clarify because I don't think he wants to leave here leaving 
the impression of a statement he made. I think he misspoke and 
you don't want to read about it later. You made a reference to 
``no taxation without representation'' being in the 
Constitution. Do you want to clarify that you did not mean that 
clause is in the Constitution?
    Mayor Fenty. Well, as you are well aware, Congressman, our 
country was founded upon the principle that citizens of the 
country would not be taxed without having----
    Mr. Bilbray. Mr. Mayor, I just wanted you to clarify the 
record that you didn't mean the Constitution.
    Mayor Fenty. Point well taken.
    Mr. Bilbray. You meant it was basically a----
    Mayor Fenty. Point well-taken.
    Mr. Bilbray. OK. Thank you. I just wanted to make sure we 
get on that so you don't----
    Mr. Lynch. The gentleman is still recognized for 5 minutes.
    Mr. Bilbray. Thank you. I appreciate that.
    Mr. Chairman, it is too bad my colleague from Fairfax isn't 
here because he was talking about what cities don't get to have 
self governance. Quantico is one of them because it is on a 
Federal reservation. For a Virginian to forget that there are 
cities that are actually encompassed in Federal jurisdictions 
that we sort of drive by every day and don't think about the 
fact the citizens of Quantico don't elect a mayor, don't have 
direct representation because the Federal Government preempts 
it.
    I have a question, Mayor, regarding the issue of the 
scholarship program in D.C. Let me tell you, this is near and 
dear, especially in a city like this. Should the program allow 
new students into the program at the present and the future as 
we have in the past?
    Mayor Fenty. Yes. Our administration supports both the 
three sector approach and then we have a statement which has 
been crafted which would allow the continued operations of the 
program and the same numbers of people in the program. There 
are some people who would want less, some people who would want 
more. You could classify that as more kids into the program 
because they are new kids or you could just classify it as the 
same number of slots. We have supported the same number of 
slots.
    Mr. Bilbray. So in other words, you support maintaining 
this into the foreseeable future where if you don't allow new 
kids in, you are basically designing the demise of the option 
for the inner city?
    Mayor Fenty. No. That would be one of the extremes. Our 
administration has adopted a position that is a little bit more 
in the middle which would support the same number of slots. 
That would allow new kids in to a certain degree but not any 
growth in the program.
    The quick explanation is the Chancellor believes that 
within a short period of time, probably more in the 5 or 6 year 
range, we will have our school system at a level that it will 
be a much more solid option for all the kids in the city.
    Mr. Bilbray. Mr. Mayor, that is very delicate for me. I 
owned a place in D.C. and, sadly, my wife was emphatic that we 
leave the District because of the lack of educational 
opportunities here.
    The other issue that is kind of interesting in this city is 
that I don't own a place here but I have a friend like Bob 
Filner where the District now has created a tax penalty for 
people that are required by Federal law not to be residents of 
D.C. but live here and work here. The District is taxing them 
basically because they are not residents, i.e, Members of 
Congress. We legally cannot be a resident, a voting resident in 
D.C. But Bob's tax is more than his partner's because he is a 
Congressman and not allowed to do that under Federal law. Has 
anybody even discussed that catch-22? I know it is small, but 
this is the kind of situation that exists in a Federal city--
the Nation's Capital--that doesn't exist in other cities.
    Mayor Fenty. If I have been briefed on that, I don't 
recall. I yield to Dr. Gandhi.
    Let me just say in reference to the schools as I yield. As 
we both support the type of school reform that Chancellor Rhee 
has been pushing over the past 2 years, I do believe that the 
bill before us will allow her to move even faster by having a 
greater understanding of what her ability to spend dollars is.
    Dr. Gandhi, I don't know if you have any information about 
the bill.
    Mr. Gandhi. I do, Mr. Mayor. I think the Mayor spoke quite 
well on that.
    Mr. Bilbray. OK. I would just like to give him a choice 
rather than having to pack up and leave like a lot of people 
have done, sadly. And a lot of people who don't have the 
financial ability to pack up and leave like I did and give my 
children those options, those that are in D.C. that don't have 
that financial ability should be able to have the same 
opportunities that my children had even though their parents 
don't make the money that a Congressman makes. I appreciate 
your chance.
    Mr. Lynch. I thank the gentleman. I now recognize the 
distinguished gentleman from Missouri, Mr. Clay, for 5 minutes.
    Mr. Clay. Thank you, Mr. Chairman. Let me also point out to 
my friend from California that it was discovered that some of 
our colleagues who own residences in the District of Columbia 
were also taking homestead credits. So just to let him know 
that it cuts both ways.
    Let me ask Dr. Gandhi about the bill. This bill removes 
many of the steps that the District currently goes through to 
outline spending and project the District's future fiscal 
responsibilities. In the absence of these additional steps, 
what safeguards will come into effect if the District begins to 
spend into deficit spending? What safeguards will be in place?
    Mr. Gandhi. Sir, the institution of the independent chief 
financial officer will assure the Mayor, the Council Chair and 
the Council, the Congress, and the citizens that we will not 
have a budget that is not balanced. I am obligated to certify a 
balanced budget before it moves to the Congress. And if we are 
given budget autonomy, then we will make sure in our offices 
that the budget that is put forward by the Mayor to the Council 
is properly certified as balanced and that we will have not 
only a 1-year balanced budget but a 5-year balanced budget. So 
I think this requirement on the part of the independent chief 
financial officer in itself is enough to assure the Mayor and 
the Council, and of course the Congress, that the District will 
not have unbalanced budgets.
    Mr. Clay. In your testimony you cite the specific 
benchmarks, the act details to ensure astute financial 
management. Can you elaborate a little bit on those benchmarks? 
Is that the 5-year projected budget and the balanced budget? 
Are those the benchmarks?
    Mr. Gandhi. We are by law and by practice requiring a 5-
year plan. The reason for that is that we want to make sure 
that revenues and expenditures are not moved across the years 
so that we would balance in 1 year but not in the next year. At 
the end of the day, if there is a recurring expenditure there 
has to be a recurring source. So you balance the budget this 
year but also make sure that does not create an unbalanced 
budget next year.
    Mr. Clay. Thank you for that response.
    Mr. Mayor and Mr. Gray, in 2007 at the start of the school 
Chancellor Michelle Rhee's tenure a warehouse was discovered 
with new, unopened textbooks that have yet to be distributed. 
How will the District's autonomy be structured to ensure that 
an instance like this does not occur again, costing the 
taxpayers in the District unnecessary funds?
    Mayor Fenty. That is a great question, Congressman. There 
probably are a couple different things that having faster 
moving laws and faster moving budget will do to allow 
inspectors to review where spending is going to allow us to get 
at waste. But I would say as the top manager for the city, that 
one is inexcusable given any set of laws. That is a management 
failure in not knowing where your dollars are being spent and 
wasted. I give the Chancellor a tremendous amount of credit in 
her first months for being able to find wasted resources like 
that and then direct them to the classroom.
    Mr. Clay. Thank you for your response. Mr. Gray, anything 
to add?
    Mr. Gray. Congressman Clay, I, too, think that what we are 
discussing today in terms of budget autonomy and legislative 
autonomy is less likely to address that. I think that is a 
management issue.
    If you look at some of the additional controls that the 
District has put in place over, let us say, the last decade, we 
have an Inspector General now to whom complaints like this 
about the operation of services would go. We have an auditor 
who works with the D.C. Council who looks at complaints around 
the delivery of services. So when you look at the degree to 
which we have introduced new controls, those kind of management 
failings are more likely to be ferreted out now than perhaps 
they would have been 15 or 20 years ago or certainly 35 years 
ago when limited home rule was accorded to the District of 
Columbia.
    Mr. Clay. Thank you. I thank the panel for their response. 
I yield back.
    Mr. Lynch. I understand we are going to have votes on the 
floor momentarily. I think this panel has suffered enough. 
[Laughter.]
    I appreciate the generosity of your time and also the 
quality of your testimony. I think you have helped us 
enormously in grappling with this issue. I trust this will be 
an ongoing dialog between this subcommittee and all of you on 
behalf of the District. I want to thank you for your 
willingness to come before this subcommittee and help us with 
our work.
    Without objection, the subcommittee now stands adjourned.
    [Whereupon, at 12 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7789.053

[GRAPHIC] [TIFF OMITTED] T7789.054

                                 <all>

</pre></body></html>
